  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


                  Sales of the
    Federal Emergency Management Agency
       Travel Trailers and Mobile Homes




OIG-07-41                     May 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                     May 2, 2007



MEMORANDUM FOR:               R. David Paulison
                              Administrator
                              Federal Emergency Management Agency


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      Sales of FEMA Travel Trailers and Mobile Homes
                              OIG-07-41

The purpose of this memorandum is to advise you of the results of our review of FEMA travel trailer
and mobile home sales that took place in 2005 and 2006 in Alabama, Florida, Mississippi, and
Texas. Our objectives were to determine whether the sales were at fair and equitable prices,
provided the best return for the government, and complied with applicable regulations. We
interviewed responsible FEMA officials and reviewed pertinent documents, including a selected
sample of sales at: FEMA Headquarters; the Long Term Recovery Office (LTRO) in Orlando,
Florida; and the Transitional Recovery Offices (TRO) in Montgomery, Alabama; Biloxi,
Mississippi; and Austin, Texas.

                                         Results of Review

FEMA needs a consistent and equitable sales policy for travel trailers and mobile homes. FEMA has
sold travel trailers and mobile homes for as little as $1.00 and as much as $20,000. Pricing has not
resulted in the best return for the government and has been inequitable to buyers. Because FEMA
field offices were using inconsistent pricing practices, FEMA officials in October 2006, directed that
sales be placed on hold pending development of a national sales policy. FEMA needs to expedite
the development of that policy. This report identifies some of the issues the policy must address.

Background

Section 408 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act),
as amended, authorizes FEMA to provide direct temporary disaster housing assistance to eligible
applicants in a Presidentially declared disaster. These units include mobile homes, travel trailers,
and other forms of pre-fabricated housing. The Stafford Act and 44CFR 206.118 authorizes FEMA
to sell the units at “fair and equitable prices” to occupants, provided the occupant:

   •   Lacks permanent housing;
   •   Agrees to obtain and maintain hazard insurance; and
   •   Agrees to obtain flood insurance if the unit will be located in a Special Flood Hazard Area.
In addition, FEMA Directive “Direct Housing Sales and Applicant Information Guide” requires that
the sales price be based on the original acquisition cost of the unit less an appropriate depreciation
for age and use. Further price reductions are authorized if an applicant is unable to pay the
established price.

Although FEMA headquarters directed that the sale of travel trailers and mobile homes be placed on
hold in October 2006, an exception was made for the Orlando LTRO, which continued selling units.
The Biloxi TRO stopped accepting new purchase applications, but continued to process the
applications it had received, and the Montgomery TRO placed all sales on hold. At the time of our
field visits in late 2006, the Orlando LTRO had sold 288 units, the Montgomery TRO had sold 52
units, the Biloxi TRO had sold 6 units, and the Austin TRO had not sold any.

Pricing the Housing Units

The three field offices used different methods to determine sales prices. The methods were not
consistent with FEMA policy, were inequitable in some cases, and did not always result in a fair
return in the government’s investment.

Rather than using the acquisition cost of a unit as the base price, as required by the FEMA directive,
the Orlando LTRO calculated the average cost of each type of unit for each year of purchase and
used that as the base price. This averaging method was inequitable in some cases because the
features of the units varied considerably. A unit with more features costs more than a unit with
fewer features and should logically be priced higher. Basing the price on an average cost, rather
than on the actual cost, results in some purchasers getting more for their money and some getting
less.

In the next step of the pricing process, Orlando LTRO officials deducted a depreciation allowance
from the base price. They based the amount of depreciation on the amount of time that the unit had
been in service:

   •   Unused units were depreciated 10 percent.
   •   Units leased up to 6 months were depreciated 20 percent.
   •   Units leased from 6 to 12 months were depreciated 30 percent.
   •   Units leased from 12 to 18 months were depreciated 40 percent.
   •   Units leased from 18 to 24 months were depreciated 50 percent.

The other FEMA offices used different systems for determining sales prices. The Biloxi TRO
deducted 30 to 40 percent from the acquisition cost of each unit for depreciation if a unit was sold
within 18 months, depending on the number of months that the unit was occupied. Once 18 months
had passed, they deducted 50 percent for depreciation. The Montgomery TRO, which sold only
travel trailers, priced all units at $6,000 and did not deduct for depreciation.

Orlando LTRO Further Reduced Prices and Sold New Units at Used Unit Prices

Under FEMA policy, price reductions are permitted for applicants who are unable to pay the full
sales price. Reductions are authorized only when an applicant applies in writing and provides
documented proof that two loan companies have turned down their loan application for purchase of

                                                  2
the unit. The Orlando LTRO made such price reductions in a number of cases, but could not support
these reductions as required under the criteria. Some files did contain loan denials to support the
applicant’s inability to pay, but some of the denials were from loan institutions that do not provide
loans for mobile homes and travel trailers.

Orlando LTRO officials said that they also reduced prices by amounts that FEMA paid to haul,
install, and repair the trailers and mobile homes. While reducing the sales price by expenses the
applicants paid would have made sense, we question the logic in reducing the sales price by
expenses that FEMA paid.

FEMA policies require that travel trailers and mobile homes be sold to current occupants “as is,
where is.” However, Orlando LTRO officials allowed some occupants of older units to purchase
new units at a depreciated price based on the age and use of their old unit. In addition, FEMA either
paid the cost of transporting and installing the new units, or reduced the price of the unit by that
amount if the occupant paid. These practices not only reduced the sales income to the government,
but they were inequitable to those purchasers who were not provided the same opportunity.

Conclusions

Because FEMA has not enforced a nation-wide policy on sales of travel trailers and mobile homes,
FEMA officials at several sites have developed their own ad hoc policies and procedures. Under
these locally developed policies, some purchasers receive better treatment and prices than do other
purchasers, and the government is deprived of a fair return on the sales of these units. It is possible
that FEMA sales of travel trailers and mobile homes could dramatically increase in the coming
months. FEMA officials need to issue and enforce appropriate policies and procedures concerning
such sales.

Recommendations

We recommend that the Administrator, Federal Emergency Management Agency, issue and enforce
a nation–wide policy on sales of travel trailers and mobile homes that ensures fair prices and
addresses the inequities identified in this report.

We conducted this review under the authority of the Inspector General Act of 1978, as amended, and
according to Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.

Please advise us within 30 days of the actions taken to implement our recommendations. Should
you have any questions, please call me, or your staff may contact Matt Jadacki, Deputy Inspector
General for Disaster Assistance Oversight, at (202) 254-4100.

cc: DHS Audit Liaison
    FEMA Audit Liaison




                                                   3
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
